              Key Steps Have Been Initiated, but Additional
              Emphasis Is Needed on the Oversight of the
                 Wage and Investment Fraud Program

                                   October 2003

                       Reference Number: 2004-40-002




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   October 16, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Assistant Inspector General for Audit (Small Business and
                                    Corporate Programs)

       SUBJECT:                     Final Audit Report - Key Steps Have Been Initiated, but
                                    Additional Emphasis Is Needed on the Oversight of the Wage
                                    and Investment Fraud Program (Audit # 200340033)


       This report presents the results of our review of the Wage and Investment (W&I)
       Division’s Reporting Compliance function fraud program. The overall objective of this
       review was to determine whether the W&I Division’s Reporting Compliance function has
       an effective fraud program. The W&I Division’s Reporting Compliance function is
       responsible for the oversight of the Correspondence Examination1 and Automated
       Underreporter (AUR)2 Programs.
       In summary, the Reporting Compliance function is taking steps to strengthen its fraud
       program. Since the Internal Revenue Service (IRS) reorganization in 2001, the W&I
       Division has not developed a significant fraud program. Third parties, such as
       employers, banks, and brokerage firms, report most of the income for W&I Division
       taxpayers, and the W&I Division mainly relies on automated systems to identify
       fraudulent issues. However, the W&I Division recognizes the need to strengthen its
       Reporting Compliance fraud program by improving fraud awareness and coordinating
       with other IRS offices and functions. Correspondence Examination fraud coordinators
       have been appointed on each W&I Division campus3 and meetings have been held with
       other IRS offices and functions to coordinate fraud program activities. In addition,

       1
         The Correspondence Examination Program addresses and examines issues on tax returns that can be resolved
       through written correspondence versus face-to-face contact with taxpayers. Issues generally involve overstated
       deductions and credits, and improper filing statuses and exemptions.
       2
         The AUR Program is a computer-based program that matches taxpayer income and deductions submitted by third
       parties on information tax returns against amounts reported on individual income tax returns.
       3
         The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
       correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                           2


Reporting Compliance function managers have taken initial steps to address the needs
of an AUR fraud program. Meetings have been held with other IRS offices and
functions to plan fraud training and to coordinate fraud program activities.
Although the Reporting Compliance function has taken key steps to strengthen its fraud
program, communication is fragmented and has not incorporated the necessary
accountabilities. Reporting Compliance function management has not communicated to
the Correspondence Examination and AUR Program managers their expectations for,
or the importance of, the fraud program. The Correspondence Examination and AUR
Programs do not have an effective system to control potential fraud cases referred to
other IRS offices and functions. Additionally, Correspondence Examination and AUR
Program employees have not received fraud training, and procedures are inconsistent
among W&I Division campuses when referring cases with fraud indicators.
We recommended that the Commissioner, W&I Division, develop and implement a
strategy for the Reporting Compliance fraud program that will communicate to
management and employees the importance of the program. This strategy should
include developing a method to track and measure the fraud program, fraud program
guidance and directives, and fraud training for Reporting Compliance employees
responsible for identifying indications of fraudulent taxpayer activity. In addition,
selection criteria and performance measures should be established for the campus
fraud coordinators.
Management’s Response: W&I Division management agreed with our
recommendations and recognizes the need to provide more consistent guidance and to
improve their communication on fraud identification within the W&I Division Reporting
Compliance function. In an effort to measure the effectiveness of the fraud program,
the W&I Division Reporting Compliance function is planning to establish a database to
track and monitor the activity of all fraud referrals. Management is also implementing a
strategy to ensure uniform and consistent fraud training is provided to all W&I Division
Reporting Compliance function examiners. In addition, existing fraud coordinator
responsibilities, as outlined in the Internal Revenue Manual, will be used to measure
campus fraud coordinator performance.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
               Key Steps Have Been Initiated, but Additional Emphasis Is Needed
                 on the Oversight of the Wage and Investment Fraud Program




                                                Table of Contents


Background ............................................................................................... Page 1
The Reporting Compliance Function Has Taken Initial
Steps to Strengthen Its Fraud Program ..................................................... Page 3
The Reporting Compliance Fraud Program Is Fragmented
and Does Not Incorporate the Necessary Accountabilities........................ Page 5
         Recommendations 1 and 2: ........................................................... Page 9

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Management’s Response to the Draft Report .................... Page 15
             Key Steps Have Been Initiated, but Additional Emphasis Is Needed
               on the Oversight of the Wage and Investment Fraud Program

                                   The mission of the Internal Revenue Service (IRS) is to
Background                         provide taxpayers with top quality service by helping them
                                   understand and meet their tax responsibilities and by
                                   applying the tax law with integrity and fairness to all.
                                   Taxpayers have the right to reduce, avoid, or minimize their
                                   taxes by legitimate means. When taxpayers do not comply
                                   with tax laws, enforcement actions (such as the examination
                                   of their tax returns) may be appropriate. The IRS uses
                                   various techniques and has an extensive system in place to
                                   identify tax returns with misreported income or with
                                   irregularities that indicate the possibility of fraud.
                                   In Fiscal Year (FY) 2002, the IRS began realigning its
                                   resources and enforcement activities to focus on areas of
                                   noncompliance with the tax law. On May 7, 2003, the IRS
                                   Commissioner stated that one of the major focuses of the
                                   IRS would be to strengthen the integrity of the nation’s tax
                                   system through enhanced enforcement activities. The
                                   Commissioner also stated the IRS must deter those who
                                   might be inclined to evade their legal tax obligations and
                                   appropriately pursue those who actually do so.
                                   The IRS’ Wage and Investment (W&I) Division supports
                                   this focus. The W&I Division serves about 122 million
                                   taxpayers who file a United States Individual Income Tax
                                   Return (Form 1040) without a Profit or Loss From Business
                                   (Sole Proprietorship) (Schedule C), Supplemental Income
                                   and Loss (Schedule E), or Profit or Loss From Farming
                                   (Schedule F) attached; without an Employee Business
                                   Expenses (Form 2106) attached; and without international
                                   activity. Third parties1 report most of the income for this
                                   group, and the vast majority of taxes are collected through
                                   third party withholding. Most of these taxpayers deal with
                                   the IRS only when they file their tax returns, and
                                   approximately 97.6 million (80 percent) receive refunds and
                                   are highly compliant. When compliance issues do arise,
                                   they are often the result of taxpayer confusion and are often
                                   detected and selected through technology-based programs,
                                   such as the Correspondence Examination and Automated

                                   1
                                     Third parties such as employers, banks, brokerage firms, and others are
                                   required to file information returns to report income and certain
                                   deductions to the IRS.
                                                                                                    Page 1
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      Underreporter (AUR) Programs in the W&I Division’s
                      Reporting Compliance function.
                      The Correspondence Examination Program addresses and
                      examines issues on tax returns that can be resolved through
                      written correspondence from the campuses2 versus
                      face-to-face contact with taxpayers. Issues generally
                      involve overstated deductions and credits, and improper
                      filing statuses and exemptions. The Correspondence
                      Examination Program operates from five campuses:
                      Andover, Massachusetts; Atlanta, Georgia; Austin, Texas;
                      Fresno, California; and Kansas City, Missouri.
                      The AUR Program is a computer-based program that
                      matches taxpayer income and deductions submitted by third
                      parties on information tax returns against amounts reported
                      on individual income tax returns. The IRS attempts to
                      reconcile any discrepancies by corresponding with the
                      taxpayers. If the discrepancies are not resolved, the
                      taxpayers are assessed additional tax. This process is not
                      considered an examination of a tax return. The AUR
                      Program operates from three campuses: Atlanta, Georgia;
                      Austin, Texas; and Fresno, California.
                      Examination of tax returns under these programs may
                      disclose irregularities that indicate fraudulent taxpayer
                      activities. These irregularities might result in the
                      assessment of a civil or criminal penalty. The distinction
                      between these penalties is the degree of evidence required to
                      support them. In civil fraud cases, the Federal Government
                      must prove fraud by clear and convincing evidence. In
                      criminal cases, the Federal Government must present
                      sufficient evidence to prove guilt beyond a reasonable
                      doubt.
                      Due to the complexity of fraud issues, responsibilities for
                      developing fraud issues on tax returns (cases) and for
                      pursuing civil and criminal fraud penalties against taxpayers
                      fall to other IRS offices and functions outside of the

                      2
                       The campuses are the data processing arm of the IRS. The campuses
                      process paper and electronic submissions, correct errors, and forward
                      data to the computing centers for analysis and posting to taxpayer
                      accounts.
                                                                                     Page 2
              Key Steps Have Been Initiated, but Additional Emphasis Is Needed
                on the Oversight of the Wage and Investment Fraud Program

                                    W&I Division. Therefore, after W&I Division employees
                                    identify tax returns with indications of fraud, they refer the
                                    cases to these other areas for evaluation and development.
                                    If the case meets the criteria to assess a civil penalty, the
                                    case is referred to the IRS’ Small Business/Self-Employed
                                    (SB/SE) Division. If the case meets the criteria to assess a
                                    criminal penalty, the case is referred to the IRS’ Criminal
                                    Investigation (CI) function.
                                    Reporting Compliance function management stated that the
                                    Correspondence Examination and AUR Programs are the
                                    two programs within the W&I Division to most likely
                                    encounter taxpayer fraud. However, with no effective
                                    system to track fraud referrals, neither Reporting
                                    Compliance function management nor the Treasury
                                    Inspector General for Tax Administration could accurately
                                    determine the number of fraud referrals made by these
                                    Programs.
                                    This review was conducted in the W&I Division’s
                                    Reporting Compliance function Headquarters in Atlanta,
                                    Georgia; and the IRS campuses located in Atlanta, Georgia;
                                    Austin, Texas; and Fresno, California, between March and
                                    July 2003. The audit was conducted in accordance with
                                    Government Auditing Standards. Detailed information on
                                    our audit objective, scope, and methodology is presented in
                                    Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    The W&I Division has not developed a significant fraud
The Reporting Compliance
                                    program. Third parties report most of the income for W&I
Function Has Taken Initial Steps
                                    Division taxpayers, and the W&I Division mainly relies on
to Strengthen Its Fraud Program
                                    automated systems to identify fraudulent issues. In
                                    addition, W&I Division employees do not develop cases
                                    identified with potential fraud. However, W&I Division
                                    Reporting Compliance function management recognizes the
                                    need to strengthen its fraud program by improving fraud
                                    awareness and coordinating with other IRS offices and
                                    functions.
                                    In 1997, the Congress appropriated funds to the IRS to help
                                    improve the administration of the Earned Income Tax



                                                                                             Page 3
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      Credit (EITC)3 and reduce the number of instances where
                      taxpayers overclaimed the EITC. Since then, these tax
                      returns have been the primary inventory for the
                      Correspondence Examination Program. Detecting fraud on
                      tax returns claiming the EITC is mainly accomplished using
                      systemic filters4 and requires little fraud awareness or fraud
                      identification skills on the part of the employees processing
                      these tax returns.
                      In FY 2003, Correspondence Examination function
                      management planned to increase their selection of tax
                      returns for issues other than the EITC from approximately
                      44,000 closures in FY 2002 to 52,750. If resources allow,
                      they plan to continue to increase the selection of non-EITC
                      tax returns for examination in FY 2004. They recognize the
                      impact this inventory shift will have on their
                      Correspondence Examination fraud program and have
                      already taken positive steps. For example:
                      •   The Internal Revenue Manual (the IRS’ manual of
                          procedures and guidelines) is in the process of being
                          updated for the Correspondence Examination fraud
                          program.
                      •   Fraud coordinators have been assigned on all five
                          W&I Division campuses. They will provide guidance
                          and training, and serve as Correspondence Examination
                          fraud program liaisons with other IRS offices and
                          functions.
                      •   Training is being planned for the campus fraud
                          coordinators. The goal is to train the fraud coordinators,
                          who will then deliver their training to the
                          Correspondence Examination Program function
                          employees.



                      3
                        The EITC is a refundable credit established to offset the impact of
                      Social Security taxes on low-income families and to encourage them to
                      seek employment rather than welfare.
                      4
                        Systemic filters are criteria developed to identify tax returns with
                      pre-determined characteristics that are considered at high risk for refund
                      fraud. If the tax returns meet specific filter criteria, then they are
                      selected for examination.
                                                                                        Page 4
             Key Steps Have Been Initiated, but Additional Emphasis Is Needed
               on the Oversight of the Wage and Investment Fraud Program

                                   •   Meetings have been held with the other IRS offices and
                                       functions that will partner with the Correspondence
                                       Examination Program function in evaluating tax returns
                                       with indications of fraudulent taxpayer activities.
                                   The AUR Program does not present significant fraud risk
                                   since most of the AUR inventory with fraud potential is
                                   pre-identified by systemic filters and forwarded to the IRS’
                                   CI function. However, they are taking steps to strengthen
                                   the AUR fraud program. For example:
                                   •   The Reporting Compliance function is in the process of
                                       securing an agreement with the CI function to provide
                                       information about identifying taxpayer fraud through
                                       presentations to the AUR Program employees.
                                   •   Meetings have been held to coordinate with the other
                                       IRS offices and functions that will partner with the
                                       AUR Program when referring tax returns that have
                                       indications of possible fraudulent taxpayer activities.
                                   •   Guidelines and desk procedures have been developed on
                                       AUR Program sites directing how to process and
                                       redirect inventory with suspected altered Wage and Tax
                                       Statements (Form W-2) or previously identified fraud
                                       issues to the CI function.
                                   In July 2003, after we discussed these issues with the
                                   Correspondence Examination and AUR Program analysts,
                                   employees from the W&I Division and other IRS offices
                                   and functions met to discuss the framework for developing a
                                   fraud strategy within both Reporting Compliance programs.
                                   This will help ensure the fair, consistent, and equitable
                                   treatment of taxpayers in the W&I Division fraud program.
                                   Although the Reporting Compliance function has taken key
The Reporting Compliance Fraud
                                   steps to strengthen its fraud program, improvements are
Program Is Fragmented and Does
                                   needed to provide reasonable assurance that the fraud
Not Incorporate the Necessary
                                   program is effective and efficient. This is because the
Accountabilities
                                   Reporting Compliance fraud program is fragmented and
                                   Reporting Compliance function management has not
                                   provided sufficient controls and oversight to ensure a
                                   coordinated program that is able to measure its
                                   effectiveness, ensure its employees are trained on fraud
                                   awareness, and ensure procedures and policies are
                                                                                           Page 5
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      communicated and consistent. The General Accounting
                      Office issues standards on internal controls that state that
                      internal controls should be an integral part of an agency’s
                      management that provides, for example, reasonable
                      assurance of the effectiveness and efficiency of agency
                      operations.
                      Communication is fragmented and referrals are not
                      monitored or measured
                      Reporting Compliance function management has not
                      communicated to its Correspondence Examination and AUR
                      Program managers the expectations for or the emphasis to
                      be placed on the fraud program. For example:
                      •   Managers from the Correspondence Examination and
                          the AUR Programs stated fraud program expectations
                          and guidance have not been provided to them.
                      •   Fraud program expectations and guidance have not been
                          provided to the Correspondence Examination campus
                          fraud coordinators.
                      •   Correspondence Examination Program managers stated
                          they have not received guidance on how to measure and
                          evaluate the performance of the campus fraud
                          coordinators.
                      In addition, the Reporting Compliance function does not
                      have an effective system or process to track, monitor, or
                      measure the quantity and quality of fraud cases referred to
                      other IRS offices and functions. After cases are referred to
                      other IRS offices and functions, the Correspondence
                      Examination and AUR Programs no longer track or monitor
                      them. Reporting Compliance function management does
                      monitor the volume and type of AUR fraud referrals through
                      internal process codes; however, these process codes do not
                      clearly indicate the reason for the referral and may not
                      capture them all.
                      Without a method to track, monitor, or measure the quality
                      of fraud cases referred, the Reporting Compliance function
                      cannot determine if the fraud program is working as
                      intended or if adjustments are needed to ensure employees
                      are well trained and effective in identifying taxpayer fraud.

                                                                              Page 6
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      Employees have not received fraud training and
                      procedures
                      Reporting Compliance function management believed fraud
                      training was provided to the Correspondence Examination
                      and AUR Program employees during their FY 2003 annual
                      training. However, they did not specifically develop or
                      deliver fraud training to either of these programs in
                      FYs 2002 or 2003 and could not verify if fraud training was
                      provided.
                      The Correspondence Examination function and
                      AUR Program campus managers stated their employees
                      have not received uniform or consistent fraud training.
                      However, at the Austin Campus, some Reporting
                      Compliance function employees have received fraud
                      training. For example, the Austin Campus Fraud
                      Coordinator sent for course material and developed a fraud
                      awareness and identification training presentation. The
                      training was given to the Austin Campus Correspondence
                      Examination and some AUR Program employees.
                      However, none of the campus fraud coordinators have
                      received training. This may have an impact on the
                      Reporting Compliance fraud program. For example, one of
                      the Correspondence Examination campus fraud coordinators
                      did not know the criteria for referring a case for
                      development and consideration of a civil fraud penalty.
                      Without adequate training and proper procedures, Reporting
                      Compliance function employees might not have the skills to
                      identify indications of fraud or properly refer cases.
                      Reporting Compliance function management is in the
                      process of developing fraud training for the Correspondence
                      Examination campus fraud coordinators. The campus fraud
                      coordinators will then be responsible for subsequently
                      training the Correspondence Examination Program
                      employees at each W&I Division campus. In addition,
                      Reporting Compliance function management is coordinating
                      with the CI function to provide AUR Program employees
                      fraud training.




                                                                           Page 7
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      Criteria are inconsistent among W&I Division campuses
                      when referring cases with fraud indicators
                      Guidance and directives provided for the Correspondence
                      Examination and AUR fraud programs are not consistent.
                      When employees identify cases with fraud indicators, they
                      refer them to the campus fraud coordinators. These campus
                      fraud coordinators determine if the cases should be referred
                      to the SB/SE Division fraud referral specialists for fraud
                      development. These SB/SE Division specialists dictate the
                      criteria for acceptance of the referrals and make the final
                      decision on whether the case should be further developed
                      for fraud. These criteria are not consistent.
                      For example, on one W&I Division campus, the criteria for
                      referring a Correspondence Examination case to the SB/SE
                      Division for development and consideration of a fraud
                      penalty are dependent on a multiyear pattern and a higher
                      dollar tolerance level than on the other two W&I Division
                      campuses reviewed. On those other campuses, the criterion
                      for referring a case to the SB/SE Division for development
                      and consideration of a fraud penalty is clear and convincing
                      evidence. There are no multiyear or dollar criteria.
                      Similarly, the AUR campuses follow differing criteria when
                      determining whether cases with suspected Form W-2
                      alterations should be forwarded to the CI function to be
                      developed and considered for fraud penalties. Because the
                      dollar tolerance levels defined in the local directives and the
                      IRS’ Law Enforcement Manual5 differ, the dollar tolerance
                      level on one AUR campus is five times greater than on the
                      other two campuses.
                      Without the benefit of centralized oversight and guidance,
                      fraud program policies and practices have been allowed to
                      evolve independently on each W&I Division campus. As a
                      result, inconsistent policies and practices have developed
                      within the W&I Division Reporting Compliance fraud
                      program that may have an adverse impact on tax
                      administration by creating inconsistent treatment of
                      taxpayers.

                      5
                       The Law Enforcement Manual contains material that is classified as
                      “Official Use Only.”
                                                                                    Page 8
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                      Recommendations

                      The Commissioner, W&I Division, should:
                      1. Develop and implement a strategy for the W&I Division
                         Reporting Compliance fraud program that will
                         communicate to W&I Division management and
                         employees the importance of the Reporting Compliance
                         fraud program and that will include:
                          •   A method to track and measure the activity and
                              impact of the Reporting Compliance function fraud
                              program.
                          •   Program guidance and directives that would ensure
                              fair and consistent treatment of taxpayers.
                          •   Uniform and consistent fraud training for the W&I
                              Division employees responsible for identifying
                              indications of fraudulent taxpayer activity.
                      Management’s Response: In an effort to measure the
                      effectiveness of the fraud program, W&I Division Reporting
                      Compliance function management is planning to establish a
                      database to track and monitor the activity of all fraud
                      referrals. They are also implementing a strategy to ensure
                      uniform and consistent fraud training is provided to all W&I
                      Division Reporting Compliance examiners. The campus
                      fraud coordinators will be receiving fraud awareness
                      training that they will then provide to all the examiners at
                      their respective sites.
                      2. Establish selection criteria and performance measures
                         for the campus fraud coordinators.
                      Management’s Response: Existing fraud coordinator
                      responsibilities, as outlined in the Internal Revenue Manual,
                      will be used to measure campus fraud coordinator
                      performance. Depending on the need, a specific position
                      description may be developed at a later date.




                                                                            Page 9
           Key Steps Have Been Initiated, but Additional Emphasis Is Needed
             on the Oversight of the Wage and Investment Fraud Program

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Wage and Investment (W&I)
Division’s Reporting Compliance function has an effective fraud program. We undertook this
review as a result of the Internal Revenue Service’s (IRS) increased emphasis on strengthening
the integrity of the tax system through enhanced enforcement activities. To accomplish our
overall objective, we:
I.     Determined whether the Reporting Compliance function had developed a strategy and
       provided oversight for its fraud program.
       A. Interviewed Reporting Compliance function management to determine:
           1. The extent of the W&I Division fraud program and how management sets
              priorities for developing fraud referrals to support the IRS’ overall compliance
              strategy.
           2. How these priorities are conveyed through management’s expectations down to
              field level managers with corresponding measures for accountability.
           3. What program areas in the Reporting Compliance function have been identified as
              high risk for taxpayer fraud.
           4. How training is provided to Reporting Compliance function managers, fraud
              coordinators, and other personnel (including support personnel and tax
              examiners).
           5. How management monitors and ensures an effective W&I Division fraud
              program.
           6. How the Reporting Compliance function works with other IRS business units and
              functions to ensure it is staying proactive and effectively identifying taxpayer
              fraud.
           7. The current and future strategies, projects, and emphasis areas for the Reporting
              Compliance fraud program to ensure it remains proactive in identifying and
              addressing fraud.
       B. Obtained available documentation from Reporting Compliance function management
          on:
           1. The W&I Division fraud program strategy.



                                                                                          Page 10
             Key Steps Have Been Initiated, but Additional Emphasis Is Needed
               on the Oversight of the Wage and Investment Fraud Program

            2. The required qualifications of the campus1 fraud coordinators.
            3. The fraud training materials provided to the campus fraud coordinators and other
               Reporting Compliance function personnel.
            4. Performance measures for the campus fraud coordinators.
            5. Any guidance and directives issued for the W&I Division fraud program.
II.     Determined and evaluated the effectiveness of systems or processes used to track,
        monitor, and measure the quantity and quality of the potential fraud cases identified by
        Reporting Compliance function personnel.
III.    Determined whether the importance of the fraud program was communicated to the
        selected Correspondence Examination2 campus fraud coordinators, if the coordinators
        were properly trained on fraud awareness and detection, and if processes and controls
        were in place on the W&I Division campuses to ensure an effective fraud program.
        A. Interviewed selected campus fraud coordinators and Correspondence Examination
           function managers to determine what expectations were communicated by Reporting
           Compliance function management concerning fraud emphasis and the Reporting
           Compliance fraud program.
        B. Obtained and evaluated available documentation to determine what guidance and
           training were provided to Reporting Compliance function personnel that enabled
           them to identify potential fraud over the last 2 years.
        C. Obtained available related documentation to determine what guidance was provided
           to W&I Division Correspondence Examination managers on how to evaluate their
           campus fraud coordinators’ performance and the program.
IV.     Determined whether the importance of the fraud program was communicated to
        Reporting Compliance managers to ensure an effective fraud program and if Reporting
        Compliance function managers and employees were properly trained on fraud awareness
        and detection.
        A. Interviewed selected W&I Division campus Automated Underreporter (AUR)3 and
           Correspondence Examination managers to determine what expectations were



1
  The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
2
  The Correspondence Examination Program addresses and examines issues on tax returns that can be resolved
through written correspondence versus face-to-face contact with taxpayers. Issues generally involve overstated
deductions and credits, and improper filing statuses and exemptions.
3
  The AUR Program is a computer-based program that matches taxpayer income and deductions submitted by third
parties on information tax returns against amounts reported on individual income tax returns.
                                                                                                       Page 11
         Key Steps Have Been Initiated, but Additional Emphasis Is Needed
           on the Oversight of the Wage and Investment Fraud Program

        communicated from Reporting Compliance function management concerning fraud
        emphasis and the W&I Division fraud program.
     B. Obtained and reviewed documentation to determine what guidance and training were
        provided to Reporting Compliance function campus personnel that enabled them to
        identify potential fraud. Specifically:
        1. Determined what training Reporting Compliance function managers and campus
           employees have received on fraud awareness and detection in the last 2 years.
        2. Determined whether Reporting Compliance function managers were taking a
           proactive or reactive approach to fraud detection.
V.   Determined whether Reporting Compliance function campus personnel received planned
     training and if the training was effective.
     A. Determined how training efforts were controlled and tracked and whether the
        Reporting Compliance function used the Administrative Corporate Education System,
        the IRS’ national education and training database, to track fraud training.
     B. Identified what training courses included fraud training.
     C. Evaluated the sufficiency of the training and training materials to determine if they
        were effective in identifying fraud.
     D. Interviewed selected W&I Division AUR and Correspondence Examination managers
        and campus fraud coordinators to obtain their assessment of the fraud training.




                                                                                        Page 12
           Key Steps Have Been Initiated, but Additional Emphasis Is Needed
             on the Oversight of the Wage and Investment Fraud Program

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Bryce Kisler, Audit Manager
Kristi Larson, Senior Auditor
Alan Lund, Senior Auditor
Sharon Summers, Senior Auditor
Grace Terranova, Senior Auditor
Craig Pelletier, Auditor




                                                                                         Page 13
            Key Steps Have Been Initiated, but Additional Emphasis Is Needed
              on the Oversight of the Wage and Investment Fraud Program

                                                                          Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance SE:W:CP
Director, Reporting Compliance SE:W:CP:RC
Director, Strategy and Finance SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                               Page 14
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program

                                                             Appendix IV


        Management’s Response to the Draft Report




                                                                   Page 15
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program




                                                                   Page 16
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program




                                                                   Page 17
Key Steps Have Been Initiated, but Additional Emphasis Is Needed
  on the Oversight of the Wage and Investment Fraud Program




                                                                   Page 18
